 

IN THE
Supreme Court of the United States

OuR LADY OF GUADALUPE SCHOOL,

Petitioner,
v.

AGNES MoRRISSEY-BERRU,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,803 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 28, 2019.

Colin Casey f

Wilson-Epes Printing Co., Inc.
